No. 19-

in tf)t Supreme Court of tfje fimtetr states
Raminder Kaur, Petitioner
v.

State of Maryland, Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS OF MARYLAND

PETITION FOR A WRIT OF CERTIORARI

Samuel Bryant Davidoff
Counsel ofRecord
Colette T. Connor
Williams & Connolly LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) m-5000 ;
sdavidoff@wc. com

QUESTION PRESENTED

Whether the Sixth Amendment prohibits trial of a
criminal defendant by prosecutors with extensive
knowledge of both her privileged communications with
her defense counsel and that counsel’s investigative and
strategic work product.

(I)

II
TABLE OF CONTENTS

Page
OPINIONS BELOW............................................................. 1
JURISDICTION................................................................... 2
CONSTITUTIONAL PROVISIONS INVOLVED............... 2
STATEMENT....................................................................... 2
ARGUMENT................................................................... ..... 8
I. The Maryland Court’s Decision Conflicts with
Decisions of the Federal Courts of Appeals and State
Courts of Last Resort............................................. 8
II. The Decision Below Decides an Important Federal
Question in a Way that Undermines the Sixth
Amendment’s Protections
15
CONCLUSION..........................
18

Ill
TABLE OF AUTHORITIES
Page(s)
Cases:
Bittakerv. Woodford,
331 F.3d 715 (9th Cir. 2003)............
Connecticut v. Lenarz,
301 Conn. 417 (2011)......................
Delaware v. Robinson,
209 A.3d 25 (Del. 2019)...................
Fisher v. United States,
425 U.S. 391 (1976).........................
Gideon v. Wainwright,
372 U.S. 335 (1963).........................
Greater Newburyport Clamshell All. v.
Pub. Serv. Co. ofN.H.,
838 F.2d 13 (1st Cir. 1988)...............
Johnson v. Zerbst,
304 U.S. 458 (1938)............. ...........
Nebraska v. Bain, 292 Neb. 398 (2016).
Simmons v. United States,
390 U.S. 377 (1968)...,......................
United States v. Danielson,
325 F.3d 1054 (9th Cir. 2003)..........
United States v. Levy,
577 F.2d 200 (3d Cir. 1978)..............
United States v. Mastroianni,
749 F.2d 900 (1st Cir. 1984).............
United States v. Morrison,
449 U.S. 361 (1981)......... ................
United States v. Nobles,
422 U.S. 225 (1975).........................
United States v. Rosner,
485 F.2d 1213 (2d Cir. 1973)............

10,11
12,13,15
13
17
2

16
2

11,12
10,15
13,14,17
9,10,13,15
13,14,17
4
16
16

IV
Page(s)
Cases, cont’d—
Upjohn Co. v. United States,
449 U.S. 383(1981).........
Weatherford v. Bursey,
429 U.S 545(1977)..........

16
passim

Constitution and statute:
U.S. Const, amend. VI
28 U.S.C. § 1257(a)....

passim
2

3fn tfje Supreme Court of tjje fimteti States?
No. 20Raminder Kaur, Petitioner
V.

State of Maryland, Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS OF MARYLAND

PETITION FOR A WRIT OF CERTIORARI

Petitioner Raminder Kaur respectfully petitions for a
writ of certiorari to review the judgment of the Court of
Appeals of Maryland in this case.
OPINIONS BELOW

The opinion of the Maryland Court of Appeals declin­
ing to review the judgment of the Maryland Court of Spe­
cial Appeals is available at Pet. App. la. The unreported
opinion of the Maryland Court of Special Appeals is at

(1)

2

Pet. App. 3a. The oral ruling of the Maryland Circuit
Court is at Pet. App. 101a.
JURISDICTION
The Maryland Court of Appeals entered its judgment
on October 18, 2019. The jurisdiction of this Court is in­
voked under 28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
The Sixth Amendment to the United States Constitu­
tion provides in relevant part:
In all criminal prosecutions, the accused
shall enjoy the right... to have the Assis­
tance of Counsel for his defence.
U.S. Const, amend. VI.
STATEMENT
“The Sixth Amendment stands as a constant admoni­
tion that if the constitutional safeguards it provides be
lost, justice will not ‘still be done.’” Johnson v. Zerbst, 304
U.S. 458, 462 (1938); see also Gideon v. Wainwright, 372
U.S. 335, 342-44 (1963). That these safeguards promise
freedom from unwarranted intrusion into a criminal de­
fendant’s communications with his trial counsel has never
been doubted. In Weatherford v. Bursey, 429 U.S. 545
(1977), the Court strongly suggested that the Sixth
Amendment cannot tolerate a conviction secured after the
prosecution learned “the details of [attorney-client] con­
versations about trial preparations” or where there has
been “communication of defense strategy to the prosecu­
tion.” Id. at 554, 558. Such an intrusion into a criminal
defense would “unfairly advantage!] the prosecution, and
threaten[] to subvert the adversary system of criminal
justice.” Id. at 556.

3

That type of intrusion is what occurred here. Peti­
tioner’s original trial counsel’s complete file—which in­
cluded strategic communications with her lawyers, rec­
ords of her interviews with counsel, and investigative
memoranda—was disclosed to the government during lit­
igation over an ineffective assistance of counsel claim. Af­
ter petitioner’s success in that litigation, the Maryland
trial court allowed prosecutors who had reviewed the priv­
ileged material to retry the defendant, notwithstanding
the lead prosecutor’s admission that “I have all the infor­
mation in my head.” Transcript of Hearing (“T.”)
(11/01/16) 11:1-11.
Petitioner was convicted, and on appeal, the Maryland
Court of Special Appeals acknowledged petitioner’s priv­
ilege was in “tatters” and that the “better course” would
have been not to allow the tainted prosecutors to try the
case. It nevertheless allowed the conviction to stand be­
cause it found insufficient prejudice, namely, that:
The State’s theory of the case did not
change between trials. In each, the State
theorized that [the] murderer could have
been either [petitioner or her husband], but
that it was more likely [petitioner].
Pet. App. 68a-69a. In other words, to make a finding of
prejudice, the Maryland court would have required a
showing that the privileged disclosure was so dramatic
that it caused the prosecution to undergo a fundamental
shift in its thinking about the nature of the crime and the
relative culpability of the defendant.
This result flies in the face of the Sixth Amendment
and the concerns the Court expressed in Weatherford. It
would not stand in the federal courts of appeals and other

4
state courts of last resort that have considered this ques­
tion. These courts have consistently held that a prosecu­
tor’s knowledge of privileged defense trial strategy ren­
ders any ensuing conviction a violation of the Sixth
Amendment. Further, they have rejected the notion that
a reviewing court can retrospectively salvage such a con­
viction by finding that the prosecution’s knowledge of
privileged defense strategy had an insufficiently prejudi­
cial effect. But that is exactly the outcome the Maryland .
court sanctioned here.
If the Maryland court’s ruling is allowed to stand, it
would limit the Sixth Amendment’s protections to only
those privileged disclosures that contain such breathtak­
ing revelations that they compel a radical rethinking of
trial strategy. This would erode a right this Court has
held “fundamental to our system of justice” and “meant to
assure fairness in the adversary criminal process.”
United States v. Morrison, 449 U.S. 361, 364 (1981). For
these reasons, the petition for certiorari should be
granted.
1. On November 22,2013, Baldeo Taneja and his wife,
petitioner Raminder Kaur, were indicted for first-degree
murder, conspiracy to commit murder, and a firearms
charge. Indictment, No. 123952C, Dkt. No. 2 (Montgom­
ery Cty. Cir. Ct.). The victim was Mr. Taneja’s ex-wife,
Preeta Gabba. Pet. App. 7a.
The evidence implicating Mr. Taneja in the murder
was substantial. His divorce from the victim was acrimo­
nious and followed by contentious personal and legal dis­
putes between the two. T.(l 1/01/16) 93:20-25, 107:2-23.
In the weeks before the murder, Mr. Taneja had taken
shooting classes, obtained firearms, purchased a disguise,
and attempted to convince a co-worker to lend him a car.
T.(l 1/01/16) 80:6-17,218:3-8; T.(ll/07/16) 53:23-25; Def.’s

5

Ex. 61; T.(ll/07/16) 15:25-16:12. After the murder, his
DNA was found on the murder weapon. T.(l 1/03/16) vol.
1,195:4-10.
The evidence linking Ms. Kaur to the murder was far
more ambiguous. Ms. Kaur had no animosity towards the
victim and no obvious motive. T.(l 1/01/16) 84:2-12. Her
DNA was not present on the murder weapon (or on any of
Mr. Taneja’s firearms). T.(ll/03/16) vol. 1,195:4-21. In­
deed, the only material evidence linking her to the crime
was eyewitness testimony that the shooter, while uniden­
tified, appeared to be a woman. T.(ll/01/16) 269:7-9.
Even this scant evidence was substantially undercut by
Mr. Taneja’s purchase of a disguise (including makeup
and a long-haired wig) and the fact that the size and
weight of the shooter matched Mr. Taneja, not Ms. Kaur.
See T.(l 1/09/16) 154:7-155:19, 157:8-17, 170:23-24 (sum­
marizing the evidence).
2. Mr. Taneja and Ms. Kaur were tried jointly in the
summer of 2014, and the jury found them both guilty on
all counts. Pet. App. 16a.
Ms. Kaur moved for a new trial on the ground that she
received ineffective assistance of counsel because her trial
counsel had failed to prepare for trial and had incorrectly
advised her that the trial court would not permit her to
testify in her own defense. See Def.’s Mot. for New Trial,
Dkt. Nos. 270,281.
In response to Ms. Kaur’s motion, the government
filed five motions seeking to subpoena the “entire” inves­
tigative and trial files of Ms. Kaur’s lawyers, investiga­
tors, experts, and law clerks. Mot. Subpoenas, Dkt. Nos.
314-318. The trial court granted the motions and ordered
the defense to “turn over the files in their entirety.”
T.(02/25/15) 13:7-23. The defense accordingly produced

6
the full case files maintained by each member of Ms.
Kaur’s defense team.
These files included, among other things: (1) extensive
written correspondence from Ms. Kaur to her counsel re­
garding the charges against her and Mr. Taneja; (2) writ­
ten summaries of meetings between Ms. Kaur and her
counsel; (3) notes Ms. Kaur exchanged with her counsel
during her trial; (4) e-mails between Kaur’s attorneys dis­
cussing trial strategy; and (5) various memoranda and emails regarding the defense’s factual investigations. Ap­
pellant’s Br. 14-16, June 27,2017.
Hearings on the motion for a new trial spanned six
days of testimony, followed by oral argument. Dkt. Nos.
396, 400, 403, 408, 416, 421, 430. This included extensive
cross-examination of Ms. Kaur and her defense team, in­
cluding on their privileged communications and trial
strategy. See T.(07/13/15) vol. 1, 83:3-149:8; T.(08/03/15)
125:22-160:4. The court ultimately found that the inter­
ests of justice required granting Ms. Kaur a new trial.
T.(l 1/06/15) 3:23-14:17.
3. In anticipation of retrial, Ms. Kaur obtained a new
defense team. Her new counsel immediately filed a mo­
tion for a protective order seeking to prevent the privi­
leged information compulsorily disclosed during the post­
trial proceedings from infecting Ms. Kaur’s retrial. See
Def.’s Mot. for Protective Order, Dkt. No. 469. Specifi­
cally, the defense asked the trial court to enter a protec­
tive order both barring further use of Ms. Kaur’s privi­
leged disclosures and requiring the government to litigate
the retrial with a prosecution team untainted by those dis­
closures. Pet. App. 20a. The defense contended that
merely prohibiting the evidentiary use of the disclosed in­
formation was inadequate because the privileged infor-

7

mation was indelibly imprinted on the minds of the pros­
ecution team and inevitably would influence decision­
making and strategy during the retrial. Def.’s Mot. for
Protective Order, Dkt. No. 469, at 16.
The trial court refused to require a new prosecution
team or even to hold an evidentiary hearing on the scope
of the taint arising from the prosecution team’s access to
privileged information. Sealed T.(04/14/16) 4:3-11:22.
The court merely required the prosecution team to refrain
from introducing any privileged materials as evidence at
the retrial. Sealed T.(04/14/16) 9:23-10:2. As even the
lead prosecutor acknowledged, this restriction was nomi­
nal at best because “I have all the information in my
head .... I can’t, none of us can ever take out what’s in
our head.” T.Q1/01/16) 11:1-11.
4. Ms. Kaur was retried in the fall of 2016, by the
same two prosecutors who tried her first case and who
had cross-examined Kaur and her lawyers about their
trial strategy and privileged communications in connec­
tion with the motion for new trial. See Pet. App. 59a. Af­
ter a full day of deliberations, including a note stating that
the jury was dead-locked, Ms. Kaur was convicted on all
three counts and sentenced to life imprisonment. Pet.
App. 6a.
5. Ms. Kaur appealed the trial court’s denial of her
request for a new trial team to the Maryland Court of Spe­
cial Appeals. On June 7, 2019, the Court of Special Ap­
peals affirmed Ms. Kaur’s convictions in a 60-page unre­
ported opinion. Pet. App. 3a. The court concluded that
Ms. Kaur had failed to demonstrate that “there was ‘at
least a realistic possibility’ that she was harmed in the sec­
ond trial by the State’s access to her privileged infor­
mation, or that the State used such information to its ad­
vantage in the second trial.” Pet. App. 56a.

8
6. Ms. Kaur petitioned the Maryland Court of Ap­
peals to review the Court of Special Appeals’ decision. On
October 18,2019, the Court of Appeals denied the petition.
Pet. App. la.
ARGUMENT
I. The Maryland Court’s Decision Conflicts with Decisions
of the Federal Courts of Appeals and State Courts of Last
Resort
1. In Weatherford v. Bursey, 429 U.S. 545,547 (1977),
the Court addressed whether a retrial was mandated
when there was a knowing invasion of a criminal defend­
ant’s attorney-client relationship by an undercover agent.
The Court held there was no such mandate and that re­
trial was not appropriate in that case because the district
court had expressly found that “nothing at all” had been
communicated “to the prosecution about [defendant’s]
trial plans or about the upcoming trial.” Id. at 556. But in
reaching its conclusion, the Court distinguished several
prior precedents on the grounds that, “[i]n each case,
some, but not all, of the conversations overheard were be­
tween the criminal defendant and his counsel during trial
preparation.” Id. at 551. It further noted that “had the
prosecution learned from [the] undercover agent, the de­
tails of the [attorney-client] conversations about trial
preparations, [the defendant] would have a much stronger
case,” and it suggested that, had that happened, it would
have been “inherently detrimental to [the defendant], un­
fairly advantaged the prosecution, and threatened to sub­
vert the adversary system of criminal justice.” Id. at 554.
2. This principle—that the disclosure of privileged
communications relating to strategy for an upcoming
criminal trial is inherently prejudicial—has been readily
adopted by lower courts. Indeed, no federal court of ap-

9
peals or state court of last resort has ever, until the Mar­
yland court’s decision here, suggested the Constitution
permits trial following such a disclosure unless the de­
fendant can show that the disclosure caused a radical
change to the prosecution’s theory of the case.
a. In United States v. Levy, 577 F.2d 200,207-09 (3d
Cir. 1978), the court of appeals addressed a situation
where, unlike the situation in Weatherford, privileged in­
formation obtained by a government agent was actually
transmitted to the prosecutor. The district court declined
to grant relief, finding no prejudice notwithstanding that
“there was both an admitted invasion of the attorney-cli­
ent privilege and a transmittal of confidential information
to the government.” 577 F.2d at 208. The Third Circuit
rejected this approach because it “would put future
courts[] in the position of speculating about the prejudice
to the defense of the disclosure in question.” Id. This type
of speculation, the court explained, was untenable. Even
if a court were to learn of the disclosure before trial and
hold an evidentiary hearing:
[I]t is highly unlikely that a court can, in
such a hearing, arrive at a certain conclu­
sion as to how the government’s knowledge
of any part of the defense strategy might
benefit the government in its further inves­
tigation of the case, in the subtle process of
pretrial discussion with potential witnesses,
in the selection of jurors, or in the dynamics
of trial itself.
Id.
And were the court to address the issue after trial (as
the Maryland appellate court attempted to do here, albeit
solely based on a review of trial transcripts), it “would face

10
the virtually impossible task of reexamining the entire
proceeding to determine whether the disclosed infor­
mation influenced the government’s investigation or
presentation of its case or harmed the defense in any
other way.” Id.
Recognizing the inherent danger in such “prejudice”
inquiries, the Third Circuit announced a clear rule for this
type of Sixth Amendment analysis—a rule it found con­
sistent with Weatherford—that “the inquiry into preju­
dice must stop at the point where attorney-client confi­
dences are actually disclosed to the government enforce­
ment agencies responsible for investigating and prosecut­
ing the case.” 577 F.2d at 209.
b. In Bittaker v. Woodford, 331 F.3d 715 (9th Cir.
2003) (en banc), the Ninth Circuit addressed a situation
similar to the one presented here—an ineffective assis­
tance proceeding where privileged material would need to
be disclosed.1 There, unlike here, the trial court proac­
tively issued an order barring the state from disclosing
the privileged materials to the prosecutors who would
handle a retrial. 331 F.3d at 717 n.l. The Ninth Circuit

1 The principle focus of the Bittaker court was the scope of the waiver
of the attorney-client privilege attendant to a claim of ineffective as­
sistance of counsel. Bittaker v. Woodford, 331 F.3d 715, 716-17 (9th
Cir. 2003). The Ninth Circuit concluded, consistent with this Court’s
holding in Simmons v. United States, 390 U.S. 377 (1968), that the
waiver did not extend beyond the proceedings necessary for the inef­
fective assistance claim. Bittaker, 331 F.3d at 722-23. In this case,
the Maryland Court of Special Appeals agreed with that analysis,
holding that Ms. Kaur’s compelled production of her defense coun­
sel’s file and submission to cross-examination effected a limited
waiver that did not extend to her retrial. Pet. App. 43a.

11
approved of this procedure as necessary to prevent taint­
ing the retrial, noting that not issuing such an order would
have been an abuse of discretion. Id. at 728.
In reaching this conclusion, the Ninth Circuit noted
that the opposite result—allowing the retrial prosecutors
access to the defense file—would “immediately and per­
versely skew the second trial in the prosecution’s favor by
handing to the state all the information in petitioner’s first
counsel’s casefile.” Id. at 722. It explained that allowing
the prosecutors at a retrial “to use information gathered
by the first defense lawyer—including defendant’s state­
ment to his lawyer—would give the prosecution a wholly
gratuitous advantage.” Id. at 724. And it emphasized that
allowing the prosecution “such a munificent windfall” was
“assuredly not consistent with the fairness principal” em­
bodied in the Sixth Amendment. Id.
c. The Supreme Court of Nebraska in Nebraska v.
Bain, 292 Neb. 398 (2016), demonstrated a similar under­
standing of the constitutional problems with allowing a
defendant to be tried by prosecutors who had knowledge
of privileged case strategy. In that case, prosecutors had
gained access to defendant’s privileged communications
with his prior counsel through an inadvertent disclosure
when that counsel had joined the attorney general’s office.
Id. at 401-02. Although the prosecuting attorney who
tried the case had apparently not seen the disclosed com­
munications, it was not clear whether other government
representatives who conducted the pre-trial investigation
had reviewed any of the material. Id. at 422.
The Nebraska Supreme Court surveyed the case law
from federal and state courts and concluded the Sixth
Amendment required a presumption of prejudice when
the government becomes privy to a defendant’s confiden­
tial trial strategy. Id. at 406-18. It so held based on its

12
view that federal courts had consistently held that:
“(1) any use of the confidential information to the defend­
ant’s detriment is a Sixth Amendment violation that taints
the trial and requires a reversal of the conviction; and
(2) a defendant cannot know how the prosecution could
have used confidential information in its possession.” Id.
at 418. It concluded this presumption could only be rebut­
ted by a government demonstration with clear and con­
vincing evidence that the defendant was not prejudiced.
Id. at 423. As a result, it vacated the defendant’s convic­
tion and remanded the case for an evidentiary hearing.
Id.
d. The Connecticut Supreme Court reached a nearly
identical conclusion in Connecticut v. Lenarz, 301 Conn.
417 (2011). There the state had inadvertently obtained
the defendant’s privileged trial strategy discussions via a
valid search warrant. Id. at 420-22. The state acknowl­
edged its prosecutor had read the materials but claimed
that there was no prejudice because he had not used them
to conduct further investigation. Id. at 422. As in Bain,
the Connecticut Supreme Court concluded that “because
the privileged materials at issue contained the defend­
ant’s trial strategy and were disclosed to the prosecutor,
the defendant was presumptively prejudiced” at trial. 301
Conn, at 426.
The court explained that, regardless of how the pros­
ecution obtained the privileged information, if it related to
defendant’s trial strategy and was disclosed to prosecu­
tors involved in the subsequent trial, its disclosure was
“inherently prejudicial.” Id. at 436-37. Like the court in
Bain, the Connecticut court concluded the presumption
could only be rebutted by a clear and convincing eviden­
tiary showing. 301 Conn, at 438. The government was
unable to meet that burden. And because the defendant

13
had been publicly retried by a prosecutor who—like the
prosecutors here—had reviewed “privileged communica­
tions that contained a detailed, explicit road map of the
defendant’s trial strategy,” the court concluded that the
only reasonable remedy was dismissal of the indictment.
Id. at 558.
e. Other courts, while not explicitly presuming prej­
udice from the disclosure of trial strategy, require the
government to make an affirmative showing that there
was no prejudice to the defendant by proving the govern­
ment did not directly or indirectly use the information to
prepare its case against the defendant. See United States
v. Danielson, 325 F.3d 1054,1072 (9th Cir. 2003); United
States v. Mastroianni, 749 F.2d 900 (1st Cir. 1984). In
Mastroianni, for example, the First Circuit held that a
defendant makes a prima facie showing of prejudice when
the defendant “prove[s] that confidential communications
were conveyed as a result of the presence of a government
informant at a defense meeting.” 749 F.2d at 907-08. The
burden then shifts to the government to show that the
communications will not result in prejudice. Id.2

2 While uniform on the constitutional prejudice from a disclosure of
privileged trial strategy, lower courts have reached different conclu­
sions about what circumstances require dismissal of an indictment ra­
ther than a new trial. Cf. United States v. Levy, 577 F.2d 200,210 (3d
Cir. 1978) (dismissing indictment); Connecticut v. Lenarz, 301 Conn,
at 426 (“[B]ecause, after reviewing the privileged materials, the pros­
ecutor tried the case to conclusion, the taint caused by the state’s in­
trusion into the privileged communications would be irremediable on
retrial and the charge of which the defendant was convicted must be
dismissed.”); Delaware v. Robinson, 209 A.3d 25, 58 (Del. 2019) (en
banc) (reversing dismissal of indictment and instead disqualifying
prosecutors where “‘taint’ was contained and did not infect the pros­
ecutors”).

14
3. None of the federal courts of appeal or state courts
of last resort have come close to sanctioning what hap­
pened here. No court has, as the Maryland court did here,
made a finding of a Sixth Amendment violation contingent
on the defendant’s showing that a prosecutor’s review of
privileged defense trial strategy—let alone the defense
counsel’s entire case file—caused a seismic shift in trial
strategy and tactics. Not only does such a holding dra­
matically reduce the Sixth Amendment’s protections in
this area, but it places a nearly impossible evidentiary
burden on the defendant whose privilege has been vio­
lated. As the courts above have recognized, attempting in
hindsight to show how a prosecutor’s trial actions might
have been different but for knowing the defense’s trial
strategy is an exercise in speculation and futility. See, e.g.,
Danielson, 325 F.3d at 1071; Mastroianni, 749 F.2d at
907. “The prosecution makes a host of discretionary and
judgmental decisions in preparing its case,” and “[i]t
would be virtually impossible for an appellant or a court
to sort out how any particular piece of information in the
possession of the prosecution was consciously or subcon­
sciously factored into each of those decisions.” Danielson,
325 F.3d at 1071 (internal quotation marks omitted). It
cannot be the rule that the defendant must face the “vir­
tual] impossibility]” of showing a drastic responsive
change in the prosecution’s strategy. Id. This case pre­
sents an opportunity for this Court to correct the Mary­
land court’s departure from the holdings of the other fed­
eral and state courts regarding the Sixth Amendment’s
protection of the attorney-client privilege and defense
trial strategy.

15
II. The Decision Below Decides an Important Federal Ques­
tion in a Way that Undermines the Sixth Amendment’s
Protections
If allowed to stand, the Maryland court’s opinion por­
tends a retreat from Sixth Amendment protections that
had previously protected a defendant’s communication
with criminal trial counsel.
1. The opportunities for the government to obtain
privileged information in a criminal context are many. As
was the case here, defendants may be forced to disclose
privileged information to vindicate a claim of ineffective
assistance of counsel. That vindication will prove hollow
if the result is surrendering a strategic windfall to the
prosecution at a retrial—precisely what occurred here.
Indeed, it was just such a concern that troubled the Court
in Simmons v. United States when it pronounced it “intol­
erable that one constitutional right should have to be sur­
rendered in order to assert another.” 390 U.S. 377, 39394 (1968).
The government might also obtain privileged infor­
mation through the use of cooperating witnesses or un­
dercover agents or through the execution of search war­
rants, as occurred in several of the cases cited above. See,
e.g.,Levy, 577 F.2d at 202-04,208; Lenarz, 301 Conn. 417,
420-22. These opportunities will only expand with the
proliferation of electronic communications. An under­
cover agent with access to a defendant’s computer or email could easily encounter myriad privileged documents.
A routine warrant covering a cell phone or computer could
capture the entirety of a defendant’s written communica­
tions with counsel over e-mail or text messages.
2. Protection of the Sixth Amendment’s guarantees
to criminal defendants is vital in this context. Confidenti­
ality between attorney and accused is “the oldest of the

16
privileges for confidential communications known to the
common law.” Upjohn Co. v. United States, 449 U.S. 383,
389 (1981). The protection of this privilege is critical to a
criminal defendant’s exercise of his right to assistance of
counsel. See Weatherford, 429 U.S. at 566 n.4; Greater
Newburyport Clamshell All. v. Pub. Serv. Co. ofN.H., 838
F.2d 13, 21 (1st Cir. 1988) (“[U]tmost candor between an
attorney and client is essential to effective assistance of
counsel.”); United States v. Rosner, 485 F.2d 1213, 1224
(2d Cir. 1973) (“[T]he essence of the Sixth Amend­
ment right is, indeed, privacy of communication with
counsel.”). Similarly the protections of the work-product
doctrine are vital to the proper functioning of the criminal
justice system. “The interests of society and the accused
in obtaining a fair and accurate resolution of the question
of guilt or innocence demand that adequate safeguards as­
sure the thorough preparation and presentation of each
side of the case.” United States v. Nobles, 422 U.S. 225,
238 (1975).
3. As explained above, this Court has not yet pro­
vided guidance on the contours of this right when privi­
leged communications are disclosed or on how the right
may be vindicated. The lower courts in both the federal
and state systems have generally reached consensus on
some issues (e.g., the inherent prejudice from disclosure
of trial strategy) but have taken varied approaches to oth­
ers (e.g., the process for rebutting a presumption of prej­
udice; the propriety of dismissal as a remedy).
4. The rule announced by the Maryland court, how­
ever, is a stark outlier. It holds that a defendant cannot
obtain relief unless he can show, based solely on the trial
record, that a disclosure of privileged information
changed the theory of the case or altered the course of the
trial. Pet. App. 69a. This is not a reasonable standard. As

17
courts have recognized, even with a right to a hearing
(which was denied petitioner here), a defendant would be
hard pressed to show all the ways a prosecution team
might change its investigative strategy, trial strategy,
theory of the case, presentation of evidence, or questions
on cross examination. Danielson, 325 F.3d at 1071; Mastroianni, 749 F.2d at 907.
The Maryland court’s holding neuters the Sixth
Amendment’s protection of a criminal defendant’s privi­
lege. Under that court’s ruling, an accused individual con­
sults with an attorney with the knowledge that his com­
munications will not be meaningfully protected if they are
obtained by the government. The result is inevitable—
defendants will find that keeping their own counsel is
safer than seeking the advice of their attorney. See Fisher
v. United States, 425 U.S. 391, 403 (1976) (“if the client
knows that damaging information could more readily be
obtained from the attorney following disclosure than from
himself in the absence of disclosure, the client would be
reluctant to confide in his lawyer”). And this is precisely
the result the Sixth Amendment seeks to avoid.
5. At a minimum, this case presents an opportunity
for the Court to undo the harm to the Sixth Amendment
occasioned by the Maryland court’s opinion here. If it de­
sires, the Court could also use this case as an opportunity
to provided needed clarification on the contours of the
protection that Amendment affords to a criminal defend­
ant’s attorney-client privilege.

18

CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted,
Samuel Bryant Davidoff
Colette T. Connor
Williams & Connolly LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 4.84-5000
sdavidojf@wc. com
January 15,2020

